                                                                           Office of Inspector General
                                                                          Corporation for National and
                                                                                   Community Service




                                 QUALITY CONTROL REVIEW OF
                                  COCCHIARO & ASSOCIATES,
                                 OMB CIRCULAR A-133 AUDIT
                                  OF THE CATHOLIC NETWORK
                                   OF VOLUNTEER SERVICES
                               FISCAL YEAR ENDED JUNE 30, 2005

                                  OIG REPORT NUMBER 07- 11




                                             Prepared by:

                                    Office of Inspector General
                                   Corporation for National and
                                        Community Service
                                     1201 New York Avenue
                                     Washington, DC 20525

This report was issued to Corporation management on November 28, 2006. Under the laws and regulations governing
follow-up, the Corporation is to make final management decisions on the report’s findings and recommendations no
later than May 28, 2007, and complete its corrective actions by November 28, 2007. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                       April 19, 2006

Cocchiaro & Associates
Certified Public Accountants and Consultants


SUBJECT:      Quality Control Review of Cocchiaro & Associates, Certified Public
              Accountants and Consultants, Office of Management and Budget (OMB)
              Circular A-133 Audit of the Catholic Network of Volunteer Services, for
              Fiscal Year (FY) Ended June 30, 2005


The audit firm of Cocchiaro & Associates (Cocchiaro) performed a single audit of the
Catholic Network of Volunteer Services (CNVS) for the fiscal year ended June 30, 2005.
Office of Management and Budget (OMB) Circular A-133, “Audits of States, Local
Governments, and Non-Profit Organizations” requires the audit. The Office of Inspector
General (OIG) conducted a quality control review of the Cocchiaro audit of CNVS.

RESULTS

Cocchiaro’s audit met Generally Accepted Government Auditing Standards (GAGAS) and
the requirements in the OMB Circular A-133 and related criteria, with the following two
exceptions: Labor costs were not questioned for one employee that did not complete
timesheets, and the Schedule of Findings and Questioned Costs incorrectly reported the
auditee as a high risk auditee.

BACKGROUND

CNVS was established in 1963 to work to bring about greater participation of the laity in the
work of the Catholic Church. It is a national membership organization of volunteer and
mission programs that promotes full-time national and international service opportunities for
people of all backgrounds, ages and skills. CNVS recruits volunteers and supports the
membership by providing training, resources, networking opportunities, and national
advocacy. CNVS’s national office is in Takoma Park, Maryland.

The Corporation for National and Community Service (Corporation) awarded CNVS Grant
Nos. 01CADC0015 and 02EDNDC091, which became effective on October 1, 2001, and July
1, 2002, respectively. These two AmeriCorps grants were CNVS’ only Federal awards for the
Fiscal Year (FY) ending June 30, 2005. Both grants are the same Federal program for the
OMB Circular A-133 audit. Cocchiaro issued an unqualified opinion in its June 30, 2005,
CNVS OMB Circular A-133 Audit.
OBJECTIVE

The OIG performed the quality control review of the Cocchiaro report and supporting
working papers for the CNVS FY 2005 single audit. The objectives of the quality control
review were to determine the extent to which the OMB Circular A-133 Audit (single audit)
was conducted in accordance with Generally Accepted Government Auditing Standards
(GAGAS) and the auditing and reporting requirements of OMB Circular A-133.

                       QUALITY CONTROL REVIEW PROCESS


SCOPE AND METHODOLOGY

We conducted a quality control review of the Cocchiaro OMB Circular A-133 single audit of
CNVS, for the FY ended June 30, 2005, during April 2006 at Cocchiaro’s office in
Alexandria, Virginia.

In conducting our review, we assessed the audit documentation prepared by Cocchiaro. We
also discussed the audit with Cocchiaro representatives at an exit conference on June 29,
2006. We emphasized the areas that are of major concern to the Federal Government, such as
determining and auditing major program compliance and internal controls.

SINGLE AUDIT REQUIREMENTS

The Single Audit Act and OMB Circular A-133 are designed to improve the financial
management of State and local governments and nonprofit organizations. The Act and OMB
Circular A-133 establish uniform auditing and reporting requirements for all Federal award
recipients that are required to obtain a single audit. OMB Circular A-133 establishes policies
that guide implementation of the Act and provide an administrative foundation for uniform
requirements of non-Federal entities administering Federal awards. OMB Circular A-133
requires that Federal departments and agencies rely on and use the single audit work to the
maximum extent practicable. Entities that expend $500,000 or more of Federal awards in a
fiscal year are subject to the Act and the audit requirements in OMB Circular A-133 and,
therefore, must have an annual single or program-specific audit performed in accordance with
GAGAS.

To meet the requirements of the Act and OMB Circular A-133, the auditee (non-Federal
entity) submits to the Federal Audit Clearinghouse a reporting package on each single audit.

The American Institute of Certified Public Accountants (AICPA) Audit Guide provides
guidance on auditor responsibilities for conducting audits according to the Act and OMB
Circular A-133. In general, the Audit Guide provides auditors with an understanding of the
unique planning, performance, and reporting considerations for single audits performed in
compliance with GAGAS. In addition, the Audit Guide uses summary tables and detailed
discussions to provide the auditor with an understanding of GAGAS general, fieldwork, and
reporting requirements.

                                              2
                                    REVIEW RESULTS

An unsupported labor cost was not questioned for an employee who did not complete
timesheets. Additionally, the Schedule of Findings and Questioned Costs and the data
collection form incorrectly reported the auditee as not being low risk

Timesheet Requirements – During the testing of labor cost, the auditor discovered two
employees that did not complete timesheets. The A-133 report questioned the labor cost for
the Executive Director but did not question the labor cost for the Technical Assistance
Coordinator. Also, the related fringe benefits for both employees were not questioned. The
Executive Director divides time between six different activities. The auditor questioned
$7,164, the portion representing the Executive Director’s salary for effort on the Training and
Technical Assistance grant.

The auditor interviewed the Technical Assistance Coordinator and the Executive Director and
determined the Coordinator’s effort is dedicated only to the Training and Technical
Assistance grant. The auditor concluded a timesheet for the Technical Assistance Coordinator
was not necessary because all of the labor costs were charged to one grant. The fact that the
Technical Assistance Coordinator charged 100 percent of the salary to one grant does not
negate the need for timesheets. The audit report should have questioned the Technical
Assistance Coordinator’s salary cost of $43,000. Timesheets are required for employees
charging salaries to Federal awards, according to OMB A-122 Cost Principals for Non-Profit
Organizations, Attachment B, Selected Items of Cost, Paragraph 8.m. Compensation for
personnel services.

The fringe benefit costs applied to the salaries of the Executive Director and the Technical
Assistance Coordinator were not questioned in the audit report. OMB A-122 Cost Principals
for Non-Profit Organizations, Attachment B, Selected Items of Cost, introductory paragraph
states, in part, the determination of allowability in each case should be based on the treatment
or principals provided for similar or related items of cost. Because salary costs should be
questioned based on the principal of requiring labor activity documentation, the related fringe
benefit costs should also be questioned.

Low Risk Auditee Determination – The auditor determined, and the audit work papers
documented that the auditee was low risk in accordance with OMB A-133 §__.530 Criteria
for low risk auditee. However, the Schedule of Findings and Questioned Costs and the data
collection form indicated that the auditee was not low risk. The auditor thought that reporting
the auditee as low risk would be an indication that the 25 percent coverage rule was used for
testing. The auditee only had one Federal program which was required to be tested,
effectively providing 100 percent of Federal programs. Since the low risk determination did
not impact the percentage of Federal programs tested, the auditor concluded it would be
misleading to indicate the auditee as low risk. We believe that the auditee’s low risk should
have been indicated on the Schedule of Findings and Questioned Costs and the data collection
form; regardless of whether the 25 percent coverage rule was used.



                                               3
Recommendation

We recommend that Cocchiaro more effectively apply its professional judgment in
performing and reporting the results of audits. This process should include selecting the
standards that apply to the audit and reaching conclusions based upon those standards.
Specifically, we recommend that a footnote be used on the data collection form and the
Schedule of Findings and Questioned Costs, when the scope of testing has not been reduced
by the low risk determination. Also, the data collection form on the Federal Audit
Clearinghouse website should be corrected.



Cocchiaro’s Response

Cocchiaro agrees with reporting the low risk determination and questioning fringe benefits
related to questioned labor costs. The auditor thinks the time logs for the Technical
Assistance Coordinator meets the requirements of OMB Circular A-122.



OIG Comments

The OMB Circular A-122 requirements to support salary costs charged to Federal awards
allows for a substitute system if approved by the cognizant Federal agency.




Carol Bates /s/
Assistant Inspector General for Audit




                                            4
                                    APPENDIX 1

                                 Cocchiaro Response


The findings related to our reporting the auditee as other than low risk are correct.
Our decision to not report the auditee as low risk was based on our belief that to
report the auditee as low risk would imply that the 25% coverage rule was used,
when it was not. We concur with the recommendation made by the OIG that in the
future we report the auditee as low risk and footnote the report to indicate that the
25% coverage rule was not able to be used.

We understand the finding related to the time sheet for the technical coordinator and
understand that OMB Circular A-122 requires documentation through a time record
even if the employee is only charged 100% to one grant. During our fieldwork we
noted the absence of a traditional time sheet and satisfied ourselves as to
compliance with OMB Circular A-122 by reviewing the employee time log
(employee's sign in and out each day showing hours) and interviewing both the
employee and her supervisor as to her activity during the year in question. While we
believe that the time log meets the requirements of OMB circular A-122, we did not
adequately document the reasons for this conclusion in our workpapers. In addition,
we did not maintain a copy of the time log and during the OIG quality control review
our client could not locate the time logs for the period of the audit. As a result, we
have no choice but to accept the finding as written.

We also understand that the fringe benefits allocated to the executive director’s
salary would also be questioned costs if the basis used to allocate such benefits was
salary. We chose not to report this as a questioned costs because it fell below the
$10,000 reporting threshold for questioned costs, even when combined with the
questioned costs attributable to the Executive Director's salary. Our decision to
report the amount of questioned costs related to the Executive Director's salary, even
though it fell below the $10,000 reporting threshold in OMB Circular A-133, was
based on our experience with other agencies that have requested the dollar amounts
when following up on our audit reports.

We will adopt procedures to ensure that in the future our decisions in these grey
areas are better documented in our work papers and that any additional costs (or
estimates thereof) related to a questioned cost reported are also reported, regardless
of the dollar amount.



                                          5
